USCA4 Appeal: 20-7758

Doc: 9

Filed: 02/26/2021

Pg: 1 of 2

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-7758
JASON ROBERT VICKERS,
Petitioner - Appellant,
v.

KENNETH DIGGS,
Respondent - Appellee.

Appeal from the United States District Court for the Eastern District of North Carolina, at
Raleigh. Terrence W. Boyle, District Judge. (5:19-hc-02300-BO)
Submitted: February 23, 2021

Decided: February 26, 2021

Before MOTZ, KEENAN, and HARRIS, Circuit Judges.
Dismissed by unpublished per curiam opinion.
Jason Robert Vickers, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

USCA4 Appeal: 20-7758

Doc: 9

Filed: 02/26/2021

Pg:2of2

PER CURIAM:
Jason Robert Vickers seeks to appeal the district court’s order dismissing as
untimely his 28 U.S.C. § 2254 petition. See Gonzalez v. Thaler, 565 U.S. 134, 148 & n.9
(2012) (explaining that § 2254 petitions are subject to one-year statute of limitations,
running from latest of four commencement dates enumerated in 28 U.S.C. § 2244(d)(1)).
The order is not appealable unless a circuit justice or judge issues a certificate of
appealability. 28 U.S.C. § 2253(c)(1)(A). A certificate of appealability will not issue
absent “a substantial showing of the denial of a constitutional right.”

28 U.S.C.

§ 2253(c)(2). When, as here, the district court denies relief on procedural grounds, the
prisoner must demonstrate both that the dispositive procedural ruling is debatable and that
the petition states a debatable claim of the denial of a constitutional right. Gonzalez, 565
U.S. at 140-41 (citing Slack v. McDaniel, 529 U.S. 473, 484 (2000)).
We have independently reviewed the record and conclude that Vickers has not made
the requisite showing. Accordingly, we deny a certificate of appealability and dismiss the
appeal. We dispense with oral argument because the facts and legal contentions are
adequately presented in the materials before this court and argument would not aid the
decisional process.
DISMISSED

2

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF NORTH CAROLINA
WESTERN DIVISION
NO. 5:19-HC-2300-BO

JASON ROBERT VICKERS,
Petitioner,
v.
KENNETH DIGGS,
Respondent.

)
)
)
)
)
)
)
)
)

ORDER

Petitioner Jason Robert Vickers (“petitioner”) petitions this court for a writ of habeas corpus
pursuant to 28 U.S.C. § 2254. The matter now comes before the court on respondent’s motion for
summary judgment (DE 16) pursuant to Federal Rule of Civil Procedure 56. Also before the court
are petitioner’s motion for discovery (DE 26) and motion to appoint counsel (DE 31). The issues
raised have been fully briefed and are ripe for adjudication. For the following reasons, the court
denies petitioner’s motions, but grants respondent’s motion for summary judgment.
STATEMENT OF CASE
On November 2,2015, petitioner pleaded guilty in the Wake County Superior Court to firstdegree sexual exploitation of a minor and first-degree sexual offense with a child. ((DE 18-1), pp.
10-14). Petitioner then was sentenced, pursuant to the terms of his plea agreement, to 144-233
months imprisonment. (IcLp. 19). Petitioner did not file a direct appeal.
Petitioner next filed two post-conviction motions in the Wake County Superior Court.
Petitioner first filed a motion to locate and preserve evidence on March 24,2017, and then a motion

Case 5:19-hc-02300-BO Document 35 Filed 11/18/20 Page 1 of 12

for post-conviction DNA testing pursuant to N.C. Gen. Stat. § 15A-269 on April 11,2017. ((DE187), pp. 139-40, 149-50). On June 30,2017, the superior court denied petitioner’s motion for post­
conviction DNA testing, and found as follows: “During the police investigation a computer was
seized and a child medical evaluation was conducted. However, there was no physical evidence
seized capable of DNA testing for the purpose of comparison. The Defendant has failed to allege
and show that any physical or biological evidence exists capable of DNA testing that would be
I

material to any defense to these charges.” (Id. pp. 139-40). Petitioner appealed, and the North
Carolina Public Defender was appointed to represent petitioner. State v. Vickers. No. COA17-1216,
2018 WL 3734373 (N.C. App. Aug. 7, 2018).
On October 2, 2017, the trial court denied petitioner’s motion to locate and preserve
evidence. ((DE 18-7), pp. 149-150). The superior court provided as follows:
The offense was committed by Defendant inserting his fingers into
the minor victim’s vagina and taking a video of that act which he
downloaded to his computer and the victim’s mother later saw the
video while using Defendant’s computer.
The Defendant has failed to allege and show that the location and
preservation of any physical or biological evidence exists that would
be material to any defense to these charges.
Wherefore, the Defendant’s motion is denied and dismissed.
(Id.) Petitioner again appealed, and the North Carolina Public Defender was appointed to represent
him. Qchpp. 157-58).
On August 7,2018, the North Carolina Court ofAppeals affirmed the superior court’s denial
of petitioner’s motion for post-conviction DNA testing. State v. Vickers. No. COA17-1216, 2018
WL 3734373 (N.C. App. Aug. 7,2018). The court of appeals provided:

2

Case 5:19-hc-02300-BO Document 35 Filed 11/18/20 Page 2 of 12

In conclusion, we agree with the trial court that Defendant failed to
show that there was biological evidence related to his case which
would be “material to [his] defense.” N.C. Gen. Stat. § 15A-269(a)(l)
(2013); see also State v. Floyd, 237 N.C. App. 300, 303, 765 S.E.2d
74, 77 (2014) (“Defendant failed to show how DNA testing would
produce ‘material’ evidence; that is, he failed to show how such
testing would produce evidence sufficient to create a reasonable
probability of a different result, given the evidence already in the trial
record.”) Here, there is substantial evidence of Defendant’s guilt
including the video on Defendant’s computer showing Defendant’s
hand fondling with the child’s private part, the identification made by
Defendant’s girlfriend of the individual in the video; the statement by
the victim that Defendant was the perpetrator; and Defendant’s own
admission.
There is not a reasonable probability that the absence of Defendant’s
DNA on blood, swabs, hairs, and clothing alleged to have been
collected during the victim’s CME weeks after the abuse occurred
would be significantly probative in identifying the perpetrator. See
Cox, 245 N.C. App. at 312,781 S.E.2d at 868-69. Moreover, there is
not a reasonable probability that the presence of other fingerprints on
Defendant’s computers and cell phones months after the videos were
recorded would be significantly probative in identifying the
perpetrator. Any result from DNA testing which showed the lack of
Defendant’s DNA or the presence of another’s DNA on the items
would not conclusively prove that Defendant was not the man
depicted in the video with the minor child or the man identified by the
victim as the perpetrator. Accordingly, we affirm the trial court’s
denial of Defendant’s motion for post-conviction DNA testing. . ..
Defendant argues that the trial court erred in failing to order an
inventory of biological evidence. Assuming that the trial court even
ruled on this portion of Defendant’s motion, we conclude that the trial
court did not err by not ordering an inventory. Under N.C. Gen. Stat.
§ 15A-268 (2015), it is the burden of the defendant to contact
custodial agencies to prepare an inventory of evidence which the
defendant can use to help him prepare a motion which meets his
burden of showing materiality. N.C. Gen. Stat. § 15A-269(f) (2013)
provides that after a defendant has filed, his motion, a custodial
agency served with the motion is required to provide an inventory and
also “documents, notes, logs, or reports relating to the items of
physical evidence.” Id. There is no requirement that a court order a
custodial agency to prepare an inventory where the agency has not
3

Case 5:19-hc-02300-BO Document 35 Filed 11/18/20 Page 3 of 12

received a request or the motion. Here, any error in this regard in this
present case is harmless since Defendant has failed to meet his burden
of showing materiality.
(Id. at * 2-3). The North Carolina Supreme Court subsequently denied petitioner’s petition for
discretionary review. State v. Vickers. 371 N.C. 574, 819 S.E.2d 387 (2018).
On September 18, 2018, the court of appeals dismissed petitioner’s appeal of the superior
court’s order denying his motion to locate and preserve evidence for DNA testing. State v. Vickers.
No. COA18-35, 2018 WL 4441289 (2018). The court of appeals provided:
In this matter, Defendant simultaneously filed with the trial court two
motions: (1) a motion for post-conviction DNA testing of certain
items and (2) a motion to locate and preserve those items. The trial
court denied both motions by separate opinions. Defendant appealed
each order separately, and both appeals were pending before this
Court earlier this year.
We heard the first appeal (COA 17-1216) this past May, and on 7
August 2018 we filed an opinion in that appeal which affirmed the
trial court’s order denying Defendant’s motion for post-conviction
DNA testing. Specifically, in that appeal, we concluded that
Defendant had failed to show how DNA testing of the items he listed
in his motions would be material to his defense. We further held that
it was Defendant’s burden, pursuant to N.C. Gen. Stat. § 15A-268, to
contact custodial agencies for an inventory of items.
In this present appeal (COA 18-35), Defendant challenges the trial
court’s denial of his motion to locate and preserve the items listed in
his motion for DNA testing. But in our 7 August 2018 opinion, we
held that the items Defendant sought to test would not be material to
his defense. Therefore, we dismiss this present appeal as moot.
Id. at *1. The North Carolina Supreme Court subsequently denied petitioner’s motion for
discretionary review. See States v. Vickers. 371 N.C. 790, 821 S.E.2d 171 (2018).
On February 20,2019, petitioner filed a pro se motion for appropriate relief (“MAR”) in the
Wake County Superior Court, which was denied on May 2, 2019. (((DE18-14,18-15)). OnJune
4

Case 5:19-hc-02300-BO Document 35 Filed 11/18/20 Page 4 of 12

26, 2019, petitioner filed a petition for a writ of certiorari seeking review of the superior court’s
denial of the MAR, which the court of appeals denied on July 11,2019. (DE18-17). On November
1,2019,1 petitioner filed the instant petition for a writ of habeas corpus pro se pursuant to § 2254.
Petitioner raised the following claims: (1) “The State irreparably prejudiced the Petitioner when it
destroyed potentially exculpatory evidence after his conviction;” (2) “The evidence in this case does
not correspond to the material allegations of the indictment and/or judgment;” (3) “Petitioner
presents new evidence exonerating him of these crimes;” and (4) he received ineffective assistance
of trial counsel. Petitioner, additionally, contends that he is actually innocent of the offenses for
which he was convicted.
On April 29, 2020, respondent filed a motion for summary judgment pursuant to Rule 56,
arguing, inter alia, that petitioner’s § 2254 petition should be dismissed as time-baiTed. On May 26,
2020, petitioner responded to respondent’s motion for summaryjudgment. That same day, petitioner
filed a motion for an evidentiary hearing and motion to appoint counsel, which the court denied.
Petitioner also filed a motion to compel respondent to produce “petitioner’s [motion for appropriate
relief] (“MAR”), in its entirety, filed in Wake County Superior Court along with the fifty-two (52)
exhibits attached therewith.” See (DE 26). Respondent, in turn, opposed petitioner’s motion as
untimely, and argued that petitioner has not shown the requisite good cause for discovery because
the habeas petition is time-barred. In any event, respondent contacted the superior court regarding
petitioner’s discovery request, and, in turn, filed the only document related to petitioner’s MAR

1 Providing petitioner the benefit of the mailbox rule, the court deems his petition, dated November 1,2019,
but filed on November 5, 2019, to be filed on November 1,2019. See Houston v. Lack. 487 U.S. 266,276 (1988)
(holding that a pro se prisoner’s notice of appeal is filed at the moment it is delivered to prison authorities for
mailing to the district court).

5

Case 5:19-hc-02300-E30 Document 35 Filed 11/18/20 Page 5 of 12

which was in the superior court’s record, but not already part of the federal court record. See ((DE
29), pp. 2-3; (DE 30)). On July 6,2020, petitioner filed a second motion to appoint counsel, a reply
to his motion to compel discovery, and a supplemental appendix.
DISCUSSION
A.

Motion to Appoint Counsel and Motion to Compel
The court begins with petitioner’s motion to compel discovery. As stated, respondent has

provided petitioner with a copy of petitioner’s MAR and all attachments within the North Carolina
State Court record. See (DE 29,30). Additionally, petitioner has not shown good cause for further
discovery is this action because, as set forth in more detail below, the action is time-barred.
See Stephens v. Branker. 570 F.3d 198,213 (4th Cir. 2009). Thus, petitioner’s motion to compel
is DENIED.
The court next addresses petitioner’s motion to appoint counsel. Petitioner asserts that he
requires counsel because respondent is “unable or unwilling to provide complete discovery in this
case.” (DE 31). As stated, respondent has provided petitioner with all of the discovery material in
the superior court’s record, and the court has determined that further discovery is unnecessary. Thus,
petitioner’s motion for the appointment of counsel is DENIED.
B.

Motion for Summary Judgment
1.

Standard of Review

Summary judgment is appropriate when there exists no genuine issue of material fact, and
the moving party is entitled to judgment as a matter of law. Fed. R. Civ. P. 56(a); Anderson v.
Liberty Lobby. 477 U.S. 242,247 (1986). The party seeking summary judgment bears the burden
of initially coming forward and demonstrating an absence of a genuine issue of material fact.
6

Case 5:19-hc-02300-BO Document 35 Filed 11/18/20 Page 6 of 12

Celotex Corp. v. Catrett. 477 U.S. 317, 323 (1986). Once the moving party has met its burden, the
nonmoving party then must affirmatively demonstrate that there exists a genuine issue of material
fact requiring trial. Matsushita Elec. Industrial Co. Ltd, v. Zenith Radio Corp.. 475 U.S. 574, 587
(1986). There is no issue for trial unless there is sufficient evidence favoring the non-moving party
for a jury to return a verdict for that party. Anderson. 477 U.S. at 250.
2.

Analysis

Under the Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”), a writ of
habeas corpus by a person in custody pursuant to the judgment of a state court must be filed within
one year. 28 U.S.C. § 2244(d)(1). The period begins to run from the latest of several dates:
A) the date on which the judgment became final by the conclusion of
direct review or the expiration of the time for seeking such review;
B) the date on which the impediment to filing an application ... is
removed .. .; C) the date on which the constitutional right asserted
was initially recognized by the Supreme Court, if the right has been
newly recognized by the Supreme Court and made retroactively
applicable to cases on collateral review; or D) the date on which the
factual predicate of the claim or claims presented could have been
discovered through the exercise of due diligence.
Id.
In this case, petitioner contends that he is entitled to belated commencement of the one-year
period under § 2244(d)(1)(D).

The statute of limitation period is triggered pursuant to

§ 2244(d)(1)(D) on the date which the exercise of due diligence would have led a petitioner to
discover the factual predicate of his claim. Green v. Johnson. 515 F.3d 290, 305 (4th Cir. 2008)
(citing Wade v. Robinson. 327 F.3d 328,331 (4th Cir. 2003)). In evaluating a petitioner’s diligence,
a court must consider that the “statute’s clear policy calls for promptness.” Johnson v. United States,
544 U.S. 295, 311 (2005).
7

Case 5:19-hc-02300-BO Document 35 Filed 11/18/20 Page 7 of 12

Petitioner first asserts that he is entitled to belated commencement of the one-year period
because he did not learn of the factual predicate for his first claim-that the Cary Police Department
destroyed “potentially exculpatory” evidence-until June 20,2017. See((DE l),p. 14). Importantly,
petitioner has not identified any exculpatory evidence. The record, additionally, reflects that
petitioner was aware that his cell phone and other electronic equipment seized pursuant to the search
warrant were in the possession of law enforcement prior to the date of his guilty plea. ((DE 18-1),
pp. 83-86). With this information, petitioner could have used due diligence to pursue any additional
records from the Cary Police Department prior to the expiration of the one-year period of limitation,
but there is no evidence to suggest that petitioner did so.2 Finally, petitioner agreed in his plea
agreement that his “plea of guilty may impact how long biological evidence related to [his] case”
would be preserved,” which again should have prompted petitioner to investigate whether there was
any potentially exculpatory evidence. (Id. pp. 11, 78). Thus, petitioner is not entitled to belated
commencement of the statute of limitations for this claim.
Petitioner next asserts that he did not discover the factual predicates underlying his second,
third, and fourth claims until his trial counsel sent him the case file in May 2017. See ((DE 1),
p. 14). Simply put, there is no evidence to suggest that petitioner could not have discovered the
factual predicate for any of these claims prior to May 2017, or that he exercised due diligence in
attempting to discover these claims. See (DE 18-1), pp. 9,80-86). Moreover, as stated, petitioner’s
guilty plea hearing provided him notice of the evidence against him, and he stipulated to the factual

2 As stated, the court of appeals held that petitioner failed to show that there was biological evidence related
to his case which would be material to his defense. See. Vickers. 2018 WL 3734373, at *2. Petitioner has not
provided any evidence to the contrary. Petitioner, moreover, has not shown that the North Carolina State court
rulings regarding post-conviction DNA testing or the preservation of evidence reached a result contrary to clearly
established federal law, or were based on an unreasonable determination of facts.

8

Case 5:19-hc-02300-BO Document 35 Filed 11/18/20 Page 8 of 12

basis underlying his guilty plea. Accordingly, petitioner either knew or should have known, through
the exercise of due diligence from his actual knowledge or the public record, the factual predicates
for all of these claims since at least the date his judgment was entered on November 2, 2015.
Finally, as discussed in more detail below, petitioner has not presented any new or exonerating
evidence. Based upon the foregoing, § 2244(d)(1)(D) does not provide the starting date for the
period of limitation.
Because petitioner does not qualify for belated commencement of the statutory period, the
statutory period began to run on the date petitioner’s judgment became final. Judgment in this case
was entered on November 2,2015. Petitioner thereafter had 14 days to file an appeal. N.C.R. of
App. P. 4(a) (amended October 18, 2001, to allow fourteen (14) days to file notice of appeal).
Petitioner did not file an appeal. Therefore, petitioner’s judgment became final on November 16,
2015. As a result, petitioner’s one-year statutory period began to run on November 16,2015, and
ran for 365 days until it expired on November 16, 2016.
None of petitioner’s subsequently filed post-conviction motions operate to toll the running
of the statutory period because under § 2244(d)(2) the statutory period is tolled during the time “a
properly filed application for State post-conviction or other collateral review with respect to the
pertinent judgment or claim is pending.” 28 U.S.C. § 2244(d)(2f: see Tavlor v. Lee. 186 F.3d 557,
560(4thCir. 1999). Tolling is not permitted after the expiration ofthe statutory period. See Minter
v. Beck. 230 F.3d 663,665-66 (4th Cir. 2000); Streaterv. Beck. No. 3:05CV284-MU-02,2006 WL
1877149, *2 (W.D.N.C. Jul. 6, 2006) (“[I]t is well settled that a . . . motion or petition [filed
subsequent to the close of the statutory period] for collateral review in State court cannot somehow
breathe new life into an already expired federal limitations period[.]”), appeal dismissed. 207 F.
9

Case 5:19-hc-02300-BO Document 35 Filed 11/18/20 Page 9 of 12

App’x 271, 2006 WL 3407741 (4th Cir. 2006). Thus, petitioner is not entitled to statutory tolling
after the statutory period expired.
As a defense to the running ofthe statute of limitations, petitioner contends that he is entitled
to equitable tolling. Even though the purpose of the AEDPA is to “reduce delays in the execution
of state and federal criminal sentences . . . and to further the principles of comity, finality, and
federalism,” the Fourth Circuit has held that “the AEDPA statute of limitations is subject to equitable
tolling.” Rouse v. Lee. 339 F.3d 238,246 (4th Cir. 2003) (en banc). Nonetheless, the Fourth Circuit
has noted the rarity in which equitable tolling applies. “Any invocation of equity to relieve the strict
application of a statute of limitations must be guarded and infrequent, lest circumstances of
individualized hardship supplant the rules of clearly drafted statutes. . . . Principles of equitable
tolling do not extend to garden variety claims of excusable neglect.” Id at 246 (citing Irwin v. Dep’t
of Veterans Affairs. 498 U.S. 89,96 (1990)). Rather, equitable tolling only is “appropriate when...
extraordinary circumstances beyond [the petitioner’s] control prevented him from complying with
the statutory time limit.” Id. (citation and quotations omitted).
Here, petitioner contends that he is entitled to equitable tolling for the time period that he was
waiting for North Carolina Prisoner Legal Services (“NCPLS”) to review his criminal proceedings
to determine whether it would provide him assistance in seeking post-conviction relief. However,
mere delays in seeking legal advice from NCPLS generally does not warrant equitable tolling. See
Lindsav v. Hooks. No. 5:19-HC-2179-FL, 2020 WL 5749999, at * 3 (E.D.N.C. Sept. 25, 2020);
Smith v. Pail. No. 1:13CV911,2014 WL 2442072, at *4 (M.D.N.C. May 30,2014) (“Petitioner []
fails to explain why-if NCPLS did discourage him from filing—it took him so long to sort through
any confusion on this issue and actually file.”), appeal dismissed. 584 F. App’x 86 (4th Cir. 2014);
10

Case 5:19-hc-02300-BO Document 35 Filed 11/18/20 Page 10 of 12

Gravv. Lewis. No. 1:11CV91,2011 WL 4022787, at *3 (M.D.N.C. Sept. 9,2011) (concluding that
lack of prison libraries and delay in receipt of support from North Carolina Prisoner Legal Services
did not warrant equitable tolling). Further, ignorance of the law is not a basis for equitable tolling.
See United States v. Sosa. 364 F.3d 507, 512 (2004). Based upon the foregoing, petitioner is not
entitled to equitable tolling.
To the extent petitioner asserts his “actual innocence” to overcome the procedural bar of
section 2244(d)(l), “tenable actual-innocence gateway pleas are rare: ‘ [A] petitioner does not meet
the threshold requirement unless he persuades the district court that, in light of the new evidence,
no juror, acting reasonably, would have voted to find him guilty beyond a reasonable doubt.’”
McOuiggin v. Perkins. 569 U.S. 383,386 (2013) (alteration in original) (quoting Schlup v. Delo. 513
U.S. 298,329 (1995)). To present a credible actual-innocence claim, a petitioner must “support his
allegations of constitutional error with new reliable evidence—whether it be exculpatory scientific
evidence, trustworthy eyewitness accounts, or critical physical evidence—that was not presented at
trial.” Schlup. 513 U.S. at 324.
Here, petitioner’s actual innocence claim primarily rests upon a Keystone Forensic
Investigation report which petitioner contends proves that he could not have committed the offenses
at issue. In particular, petitioner asserts that the report reflects that the video of the alleged sex
offense was created on December 3,2013 at 4:50 p.m. (eastern standard time), at which time he was
at work and away from the victim. The report, however, reflects that the video was created at 10:50
p.m. (eastern standard time), and there is no evidence to suggest that petitioner was at work during
that time. See ((DE 33-1), p. 5; (DE 21-9), p. 5). The record, instead, supports a finding that
petitioner was in the same location as the victim when the video was created. See ((DE 21-11), pp.
11

Case 5:19-hc-02300-BO Document 35 Filed 11/18/20 Page 11 of 12

6,8). Moreover, a medical evaluation conducted by SafeChild Advocacy Center reflects the victim
reported a pattern of sexual abuse when she was attempting to fall asleep. ((DE 21-7), pp. 11-12,
24). Petitioner’s actual innocence claim, additionally, is belied by his sworn in-court admission that
he was in fact guilty of the charged offenses, as well as his apology during his plea hearing. ((DE
18-1), pp. 79,93). Finally, petitioner was aware that his attorney had hired the expert who produced
the Keystone Forensic Investigation Report, and has not explained his alleged failure to investigate
the contents of the report until May 2017. Rather, it appears petitioner did in fact receive the
discovery material, including the Keystone report, in June 2016. See (DE 21-1). Thus, petitioner
has not met the exacting standard to establish actual innocence.
CONCLUSION
For the foregoing reasons, petitioner’s motion for discovery (DE 26) and motion to appoint
counsel (DE 31) are DENIED. Respondent’s motion for summaryjudgment (DE 16) is GRANTED,
and the petition is DISMISSED. Additionally, the court DENIES a certificate of appealability. See
28 U.S.C. § 2253(c); Buck v. Davis. 137 S. Ct. 759,773 (2017); Miller-El v. Cockrell. 537 U.S. 322,
335-38 (2003); Slack v. McDaniel. 529 U.S. 473, 478, 483-85 (2000). The clerk of court is
DIRECTED to close this case.
SO ORDERED, this the

day of November, 2020.

TERRENCE W. BOYLE' (7
Chief United States District Judge

12

Case 5:19-hc-02300-BO Document 35 Filed 11/18/20 Page 12 of 12

filed
STATE OF NORTH CAROLINA
COUNTY OF WAKE

$17 J0M3Q PH 2: if!

IN THE GENERAL COURT OF JUSTICE
SUPERIOR COURT DIVISION
14CRS211534

WAKE CQ,,C.S.C
BY.....
STATE OF NORTH CAROLINA
v.
JASON ROBERT VICKERS
Defendant.

)
)
)
)
)
)
)

ORDER

This matter is before the Court upon a motion by Defendant for Post-Conviction DNA
Testing filed April 11, 2017.
The Defendant entered a plea of guilty to first degree sex offense and first degree sexual
exploitation of a minor on November 2,2015. The State’s response to Defendant’s motion includes
a copy of this transcript of plea hearing. The Defendant admitted guilt, stipulated to the factual
evidence described by the Prosecutor and apologized to the victim for these crimes.
The offense was committed by Defendant inserting his fingers into the minor victim’s
vagina and taking a video of that act which he downloaded to his computer and the victim’s mother
later saw the video while using Defendant’s computer.
During the police investigation a computer was seized and a child medical evaluation was
conducted. However, there was no physical evidence seized capable of DNA testing for the
purpose of comparison.
The Defendant has failed to allege and show that any physical or biological evidence exists
capable of DNA testing that wo:"W be material to anv defense to these charges.
A. ppendl i y

A

An unpublished opinion of the North Carolina Court of Appeals does not constitute
controlling legal authority. Citation is disfavored, but may be permitted in accordance with
the provisions of Rule 30(e)(3) of the North Carolina Rules of Appellate Procedure.
IN THE COURT OF APPEALS OF NORTH CAROLINA
No. COA17-1216
Filed: 7 August 2018
Wake County, No. 14CRS211534
STATE OF NORTH CAROLINA
v.
JASON ROBERT VICKERS, Defendant.
Appeal by Defendant from order entered 30 June 2017 by Judge Donald W.
Stephens in Wake County Superior Court. Heard in the Court of Appeals 2 May 2018.
Attorney General Joshua H. Stein, by Assistant Attorney General Joseph L.
Hyde, for the State.
Appellate Defender Glenn Gerding, by Assistant Appellate Defender David W.
Andrews, for the Defendant-Appellant.

DILLON, Judge.
Jason Robert Vickers (“Defendant”) appeals from an order denying his motion
for post-conviction DNA testing. We affirm.
I. Background
In 2014, Defendant’s live-in girlfriend brought Defendant’s laptop to the Cary
Police Department. The laptop contained a video of an adult male touching a minor

STATE V. VICKERS
Opinion of the Court

The standard of review for denial of a motion for post-conviction DNA testing
is “analogous [to the] standard of review for a denial of a motion for appropriate relief
. . . because the trial court sits as finder of fact in both circumstances.” State v. Lane,
370 N.C. 508, 517, 809 S.E.2d 568, 574 (2018) (citations omitted). Accordingly, the
trial court’s findings of fact are “binding on [our] Court if they are supported by
competent evidence and may not be disturbed absent an abuse of discretion.” Id.
In his motion, Defendant alleged that there were a number of items which
might contain biological evidence which would have been material to his defense. He
alleges that the minor’s vagina and anus were swabbed during the CME and that the
swabs would show that his DNA was not present and, therefore, that he was not the
perpetrator of the crime. Further, he alleged that fingerprints on certain cell phones
would show someone else’s fingerprints overlaying his, showing that someone else
shot the video and transferred the video to his online account.
Our Supreme Court has recently reiterated that the determination of
materiality must be made “in the context of the entire record[.]” Lane, 370 N.C. at
519, 809 S.E.2d at 575.
A Defendant may make a motion before the trial court for the performance of
DNA testing if the biological evidence at issue meets a number of requirements,
primarily that it “[i]s material to the defendant’s defense.” N.C. Gen. Stat. § 15A269(a) (2013). According to the plain language of the statute, the Defendant has the

-3-

STATE V. VICKERS
Opinion of the Court

2.

The Defendant has failed to allege and show that any physical or
biological evidence exists capable of DNA testing that would be material
to any defense to these charges.

Our Court has held that a Defendant’s burden to show materiality “requires
more than the conclusory statement that the ability to conduct the requested DNA
testing is material to the defendant’s defense.” State v. Cox, 245 N.C. App. 307, 312.
781 S.E.2d 865, 868 (2016) (internal marks and citation omitted).

In Cox, we

concluded that the defendant’s statement that “there is a very reasonable probability
that [the DNA testing] would have shown that the Defendant was not the one who
had sex with the alleged victim” was insufficient to establish materiality. Id.
In conclusion, we agree with the trial court that Defendant failed to show that
there was biological evidence related to his case which would be “material to [his]
defense.” N.C. Gen. Stat. § 15A-269(a)(l) (2013); see also State v. Floyd, 237 N.C.
App. 300, 303, 765 S.E.2d 74, 77 (2014) (“Defendant failed to show how DNA testing
would produce ‘material’ evidence; that is, he failed to show how such testing would
produce evidence sufficient to create a reasonable probability of a different result,
given the evidence already in the trial record.”) Here, there is substantial evidence
of Defendant’s guilt including the video on Defendant’s computer showing
Defendant’s hand fondling with the child’s private part, the identification made by
Defendant’s girlfriend of the individual in the video; the statement by the victim that
Defendant was the perpetrator; and Defendant’s own admission.
-5-

STATE V. VICKERS
Opinion of the Court

motion, a custodial agency served with the motion is required to provide an inventory
and also “documents, notes, logs, or reports relating to the items of physical evidence.”
Id. There is no requirement that a court order a custodial agency to prepare an
inventory where the agency has not received a request or the motion. Here, any error
in this regard in this present case is harmless since Defendant has failed to meet his
burden of showing materiality.
AFFIRMED.
Judges DIETZ and ARROWOOD concur.
Report per Rule 30(e).

-7-

TENTH DISTRICT

No. 281P18

Supreme Court of iBtortl) Carolina
STATE OF NORTH CAROLINA
v
JASON ROBERT VICKERS
From N.C. Court of Appeals
( 17-1216 )
From Wake
( 14CRS211534 )

ORDER
Upon consideration of the petition filed on the 29th of August 2018 by Defendant in this matter for discretionary
review of the decision of the North Carolina Court of Appeals pursuant to G.S. 7A-31, the following order was
entered and is hereby certified to the North Carolina Court of Appeals:
"Denied by order of the Court in conference, this the 24th of October 2018."
s/ Morgan, J.
For the Court
Upon consideration of the petition filed on the 26th of September 2018 by Defendant in this matter for
discretionary review of the decision of the North Carolina Court of Appeals pursuant to G.S. 7A-31, the following
order was entered and is hereby certified to the North Carolina Court of Appeals:
"Denied by order of the Court in conference, this the 24th of October 2018."
s/ Morgan, J.
For the Court
WITNESS my hand and the seal of the Supreme Court of North Carolina, this the 26th day of October 2018.

Amy L. Funderburk
Clerk, Supreme Court of North Carolina
M. C. Hacknevp"*
Assistant Clera, Supreme Court Of North Carolina

Copy to:
North Carolina Court of Appeals
Mr. David W. Andrews, Assistant Appellate Defender, For Vickers, Jason Robert - (By Email)
Mr. Glenn Gerding, Appellate Defender - (By Email)
Mr. Joseph L. Hyde, Assistant Attorney General, For State of North Carolina - (By Email)
Mr. Jason Robert Vickers, For Vickers, Jason Robert
Ms. Kimberly N. Callahan, Assistant Attorney General, For State of North Carolina - (By Email)
Ms. N. Lorrin Freeman, District Attorney
Hon. Jennifer Knox, Clerk
West Publishing - (By Email)
Lexis-Nexis - (By Email)

r.

/

$L« 11

STATE OF NORTH CAROLINA
COUNTY OF WAKE

r~\

1 tLciJ

WI7 ACT -2 PH

IN THE GENERAL COURT OF JUSTICE
SUPERIOR COURT DIVISION
14CRS211534
$01

WAl<E co.,c.s c
STATE OF NORTH CAROLINA
v.

JASON ROBERT VICKERS
Defendant.

)
)
)
)
)
)
)

ORDER

This matter is before the Court upon a motion by Defendant to Locate and Preserve
Evidence dated March 24, 2017.
The Defendant entered a plea of guilty to first degree sex offense and first degree sexual
exploitation of a minor on November 2,2015 . Upon review of a stenographic transcript contained
within the court file, the Court finds the Defendant admitted guilt, stipulated to the factual evidence
provided by the Prosecutor and apologized to the victim for these crimes.
The offense was committed by Defendant inserting his fingers into the minor victim’s
vagina and taking a video of that act which he downloaded to his computer and the victim’s mother
later saw the video while using Defendant’s computer.
During the police investigation a computer was seized and a child medical evaluation was
conducted. However, there was no physical evidence seized capable of DNA testing for the
purpose of comparison.
The Defendant has failed to allege and show that the location and preservation of any
my defense to these charges.

physical or biological evidence exi

8

I

(

Wherefore, the Defendant’s motion is denied and dismissed.

So ORDERED this, the

cz)-—day of October, 2017.

r

DONALD W. STEPHENS
SENIOR RESIDENT SUPERIOR COURT JUDGE

An unpublished opinion of the North Carolina Court of Appeals does not constitute
controlling legal authority. Citation is disfavored, but may be permitted in accordance with
the provisions of Rule 30(e)(3) of the North Carolina Rules of Appellate Procedure.
IN THE COURT OF APPEALS OF NORTH CAROLINA
No. COA18-35
Filed: 18 September 2018
Wake County, No. 14CRS211534
STATE OF NORTH CAROLINA
v.
JASON ROBERT VICKERS, Defendant.
Appeal by Defendant from order entered 2 October 2017 by Judge Donald W.
Stephens in Wake County Superior Court. Heard in the Court of Appeals 8 August
2018.
Attorney General Joshua H. Stein, by Assistant Attorney General Kimberly N.
Callahan, for the State.
Appellate Defender Glenn Gerding, by Assistant Appellate Defender David W.
Andrews, for the Defendant-Appellant.

DILLON, Judge.
Jason Robert Vickers (“Defendant”) appeals from an order entered by the trial
court denying his motion to locate and preserve evidence for DNA testing.
In this matter, Defendant simultaneously filed with the trial court two
motions: (1) a motion for post-conviction DNA testing of certain items and (2) a

State v. Vickers
Opinion of the Court

motion to locate and preserve those items. The trial court denied both motions by
separate opinions. Defendant appealed each order separately, and both appeals were
pending before this Court earlier this year.
We heard the first appeal (COA 17-1216) this past May, and on 7 August 2018
we filed an opinion in that appeal which affirmed the trial court’s order denying
Defendant’s motion for post-conviction DNA testing. Specifically, in that appeal, we
concluded that Defendant had failed to show how DNA testing of the items he listed
in his motions would be material to his defense.

We further held that it was

Defendant’s burden, pursuant to N.C. Gen. Stat. § 15A-268, to contact custodial
agencies for an inventory of items.
In this present appeal (COA 18-35), Defendant challenges the trial court’s
denial of his motion to locate and preserve the items listed in his motion for DNA
testing. But in our 7 August 2018 opinion, we held that the items Defendant sought
to test would not be material to his defense. Therefore, we dismiss this present appeal
as moot.
DISMISSED AS MOOT.
Judges DAVIS and INMAN concur.
Report per Rule 30(e).

-2-

V

TENTH DISTRICT

No. 281P18-2

Supreme Court of jSortl) Carolina
STATE OF NORTH CAROLINA

v
JASON ROBERT VICKERS
From N.C. Court of Appeals
( 17-1216 18-35 )
From Wake
( 14CRS211534 )

ORDER
Upon consideration of the petition filed on the 22nd of October 2018 by Defendant in this matter for discretionary
review of the decision of the North Carolina Court of Appeals pursuant to G.S. 7A-31, the following order was
entered and is hereby certified to the North Carolina Court of Appeals:
"Denied by order of the Court in conference, this the 5th of December 2018."
s/ Morgan, J.
For the Court
WITNESS my hand and the seal of the Supreme Court of North Carolina, this the 12th day of December
2018.

Amy L. Funderburk
Clerk, Supreme Court of North Carolina

~7tfC,A

M. C. HacknevL—----Assistant Clert*, Supreme Court Of North Carolina

Copy to:
North Carolina Court of Appeals
Mr. David W. Andrews, Assistant Appellate Defender, For Vickers, Jason Robert - (By Email)
Mr. Glenn Gerding, Appellate Defender - (By Email)
Mr. Joseph L. Hyde, Assistant Attorney General, For State of North Carolina - (By Email)
Mr. Jason Robert Vickers, For Vickers, Jason Robert
Ms. Kimberly N. Callahan, Assistant Attorney General, For State of North Carolina - (By Email)
Ms. N. Lorrin Freeman, District Attorney
Hon. Jennifer Knox, Clerk
West Publishing - (By Email)
Lexis-Nexis - (By Email)

Additional material
from this filing is
available in the
Clerk's Office.

